(4 ~ se:uv,c¿,,s

  ~S.e:HVICe8




( .ø~\
 '.. ~
<"~..<.-::::l
  ~..

    ..lti.,f::o

                          DEPARTMENT
                          DEPARTMENT OFOF IiALTH
                                       HEALm     & HU SERVICES
                                               & HUMAN SERVICES                                                     Office
                                                                                                                    Officeof
                                                                                                                           ofInspector
                                                                                                                              InspectorGeneral



                                                                                                                    Washington,
                                                                                                                    Washington, D.C.
                                                                                                                                        General



                                                                                                                                D.C. 20201
                                                                                                                                     20201



                                                                          SEP
                                                                          SEP -- 99 2008

                                                                                    2008


              TO:
              TO:                    Daniel C.
                                     Daniel C. Schneider
                                               Schneider



                                                                               ~~~
                                     Acting Assistant
                                     Acting Assistant Secretary
                                                      Secretary for
                                                                for Children
                                                                    Children and
                                                                             and Families
                                                                                 Families


              FROM:
              FROM:                  Daniel
                                     Daniel           Levinson~~ ~~ ~
                                            R. R. Levinson
                                     Inspector General
                                     Inspector General


              SUBJECT:
              SUBJECT:                                   Temporary Assistance
                                     Review of Improper Temporary    Assistance for
                                                                                 for Needy
                                                                                     Needy Families
                                                                                           Families Basic Assistance
                                     Payments in California for April i,
                                     Payments in California for April I, 2006, Through  March 31, 2007
                                     (A-09-07-00087)


              Attached is
              Attached        is an
                                  an advance
                                       advancecopy   copyof   ofour
                                                                  ourfinal
                                                                         finalreport
                                                                                reporton
                                                                                       onimproper
                                                                                          improperTemporary
                                                                                                     TemporaryAssistance
                                                                                                                 Assistace for
                                                                                                                            for Needy
                                                                                                                                Needy
              Families       (TANF)
              Families (T ANF)             basic
                               basic assistance     assistance
                                                payments             payments
                                                         in California for April
  in California for April 1,
                                                                                                           1 ,2006,
                                                                                                               2006,through
                                                                                                                     through March
                                                                                                                             March 31,
              2007.      We
              2007. We will    will
                            issue this issue
                                       report tothis   reportDeparment
                                                 the California  to theof
 California Department ofSocial                          agency)
                                                                                                       Social Services (the State agency)
              within 55 business
              within        business days. days. The The Administration
                                                            Administration for     for Children  and Families
                                                                                       Children and  Families (ACF)
                                                                                                               (ACF) and
                                                                                                                       and the
                                                                                                                           the Office
                                                                                                                               Office of
                                                                                                                                      of
              Management            and   Budget       requested
              Management and Budget requested this review.             this   review.

             The   T ANFprogram,
             The TANF      program,which
                                       whichthe
                                             theFederal
                                                  Federaland
                                                          andState
                                                               StateGovernments
                                                                     Governents jointly
                                                                                 jointly fund
                                                                                          fund and
                                                                                                and administer,
                                                                                                    administer, is
                                                                                                                 is aa
             block
             block grant
                     grant program   that provides
                           program that   provides eligible
                                                   eligible families with work
                                                            families with  work opportunities
                                                                                opportunities and
                                                                                               and other
                                                                                                    other assistance,
                                                                                                          assistance,
             including
             including basic assistance payments for such ongoing basic needs as food, clothing, shelter, and
                         basic assistance  payments  for such ongoing   basic needs as food,  clothing, shelter, and
             utilities. Federal and  State laws, regulations, and  other requirements  establish T ANF   eligibility,
             utilities. Federal and State laws, regulations, and other requirements establish TANF eligibility,
             payment,
             payment, andand documentation
                             documentation requirements.
                                              requirements.

             Our
             Our objectives
                  objectives were
                              were to
                                   to determine
                                      determine whether
                                                  whether the
                                                            the State
                                                                State agency
                                                                      agency (1)
                                                                              (l) made
                                                                                  made TTANF
                                                                                         ANF basic
                                                                                               basic assistance
                                                                                                     assistance
             payments
             payments to or on behalf of recipient families in accordance with Federal and State requirements
                        to or on behalf of recipient  families  in accordance  with Federal and State  requirements
             and
             and adequately
                 adequately documented
                              documented eligibility
                                            eligibility and
                                                        and payment
                                                             payment determinations
                                                                       determinations and
                                                                                      and (2)
                                                                                          (2) accurately
                                                                                              accurately reported
                                                                                                          reported
             basic assistance  expenditures  to ACF.
             basic assistance expenditures to ACF.

              For
             For the the     April 
 April i,
                           period
                      period                 I, 2006,
                                                2006, through
                                                        through March
                                                                March 31,2007,
                                                                      31,2007,thetheState
                                                                                     Stateagency
                                                                                           agencymade
                                                                                                  made some
                                                                                                        some TANF
                                                                                                               TANF basic
                                                                                                                       basic
             assistance        payments     that   did not meet Federal and State requirements  and did
             assistance payments that did not meet Federal and State requirements and did not adequatelynot adequately
             document
             document all      all eligibility
                                    eligibility and
                                                  and payment
                                                       payment determinations.
                                                               determinations. The
                                                                                TheState
                                                                                     Stateagency
                                                                                           agencyaccurately
                                                                                                  accurately reported
                                                                                                              reported basic
                                                                                                                       basic
             assistance        expenditures
             assistance expenditures to ACF.     to ACF.

             We did not identify any errors in 133 ofthe
             We did not identify any errors in 133 of 

                                                             the 150
                                                                  150 payments
                                                                      payments in our statistical sample. However,
                                                                                                            However, the
                                                                                                                      the
             remaining 17 payments were improper. For 14 ofthese
             remaining 17 payments were improper. For 14 of 
           these payments,
                                                                              payments, the
                                                                                         the recipient
                                                                                             recipient families
                                                                                                        families were
                                                                                                                 were
            ineligible
             ineligible for
                         for TTANF
                                ANF basic
                                       basic assistance
                                              assistance or
                                                         or the
                                                            the payments
                                                                  payments were
                                                                            were calculated
                                                                                 calculated improperly.
                                                                                            improperly. For
                                                                                                          Forthree
                                                                                                               three
            payments,
             payments, thethe case
                               case files
                                     files did
                                           did not
                                               not contain
                                                    contain all
                                                            all required
                                                                 required documentation
                                                                          documentation supporting
                                                                                          supporting eligibility
                                                                                                      eligibilityand
                                                                                                                  and
            payment
             paymentdeterminations.
                       determinations.
Page 2 – Daniel C. Schneider


Based on our sample results, we estimated that the overall TANF improper payment rate was
5.7 percent of the Federal dollars expended and 11.3 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$91,613,100 (Federal share) for 558,647 improper payments.

We recommend that the State agency:

   •   use the results of this review to help ensure compliance with Federal and State TANF
       requirements by (1) reemphasizing to recipients the need to provide accurate and timely
       information and (2) requiring county office employees to verify eligibility information
       and maintain appropriate documentation in all case files,

   •   follow State law and guidance by ensuring that recipients are experiencing hardship when
       extending TANF basic assistance payments beyond the 60-month Federal lifetime limit,

   •   determine the current eligibility of all recipients identified in this review as improperly
       enrolled in the TANF program and ensure that further assistance is denied for those who
       remain ineligible, and

   •   recalculate assistance budgets for all recipients identified in this review as having
       received improperly calculated payments.

In its comments on our draft report, the State agency agreed with all of our recommendations
except the second one. The State agency commented that it followed State law and guidance
when granting hardship extensions of TANF basic assistance payments beyond the 60-month
Federal lifetime limit. We maintain the validity of our finding and recommendation related to
such extensions.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through e-mail at
Lori.Pilcher@oig.hhs.gov or Lori A. Ahlstrand, Regional Inspector General for Audit Services,
Region IX, at (415) 437-8360 or through e-mail at Lori.Ahlstrand@oig.hhs.gov. Please refer to
report number A-09-07-00087.


Attachment
(~-~
(J
,-S'r'
           DEPARTMNT
           DEPA RTMENT OF HEAL
                          HEALmTH&
                                 & HUMA
                                   HUMA NSERVICES
                                          SERVICES                                                             Office
                                                                                                               Offce of


                                                                                                              RegionlX
                                                                                                              Office
                                                                                                              Offce of
                                                                                                                      of Inspector
                                                                                                                         Inspector General


                                                                                                                        IX ..
                                                                                                                            ..
                                                                                                                      of Audit Services
                                                                                                                                Servces
                                                                                                                   -,'h ~treet,
                                                                                                              90 - 7th  Street, Suite
                                                                                                                                 Suite3-650
                                                                                                                                       3-50
                                                         SEP
                                                         SEP 11 66 2008

                                                                    2008                                      San F~nciscoi
                                                                                                                   Francisco. CACA 94103
                                                                                                                                     94103


           Report Numb
                  Number:
                      er: A-09-07-00087
                          A-09-07-00087

           Mr. John A. WagÌer
                       Wagiter
           Director
           Director
           Californa
           Califo     Deparent
                 rnia Depar tmentofofSocial
                                      Social Servces
                                             Services
           744P Street
           744P
           Sacramento,
           Sacram       California
                  ento, California 95814
                                    95814
          Dear Mr. Wagner:
                   Wagner:

          Enclos
          Enclosed ised
                      theis  the
                          U.S.     U.S.of Depart
                               Deparent    

                                                  ment of Health      and Services
                                                                            Huma(HHS),
                                                                                    n Servic    es
 (HHS), Office of Inspec
                                                           Health and Human              Offce of
                                                                                                                       Inspector
                                                                                                                             tor
          General       (DIG),      final  report
          General (DIG), final report entitled    entitled "Revie
                                                           "Review   w of of Improp
                                                                              Improperer Temporary Assistance
                                                                                          Temporar                   for Needy
                                                                                                         Assistance for Needy
          Familes
          Famili         BasicAssist
                    es Basic        Assistce
                                           ancePayments
                                                Payments in  in Califo
                                                                 Californa      for April
                                                                          rnia for  Apnll, 2006, Though March 31,
                                                                                             1, 2006, Through March 31,
          2007."      We     willa copy
                                     forward a copy ofthis      report to the HHS
                                                          ths report             IffiS action officia
                                                                                                    offciall noted
                                                                                                             noted on
                                                                                                                   on the
          2007." We will forward        of 

                                                                                                                      the
          follow    ingforpage
          followig page     review for
                                    
   review and any action deeme deemed      necessar.
                                                                             d necess  ary.
          The HHSHHS actionactionofficia
                                   offciall will
                                               will make
                                                      makefinal finaldetenn
                                                                        detennation
                                                                                 mation as   as to
                                                                                                to actions  taen on all matters
                                                                                                   actions taken  on all matters
          reporte    d.request
          reported. We    Wethat
                               reques   t that you respond to this official within 30 days from the date of this
                                  you respond to this offcial within 30 days ftom the date of 


          letter . Your respon
          letter.             response    should presen
                                      se should       presentt anyany comm
                                                                        comments  ents oror additio
                                                                                              additiona
                                                                                                     nal information  that youths
                                                                                                         information that  you
          believe
          believe may        have aa bearing
                       may have        bearing on  on the
                                                        the final
                                                               finaldetenn
                                                                        deteination.

                                                                                ination.
          Pursua    nt principles
                        to the princip     les of the Freedo
                                                      Freedom      ofInformation  Act, 55 U.S.C.
                                                                                          V.S.C. §§552,
                                                                                                    552,asasamend
                                                                                                             amended
                                                              m ofInfo    rmation Act,                                byby
          Pusuat to the           of 


                     LaW104-23
                             104-231,      OIGreports
                                                report generally      ar made                                      edthe
          Public LaW                   1, OIG           generally are    madeavailable  to the public to  the extent
                                                                               available to the public to the extent the
          infonnation
          infonn    ation is not subject       to exemp
                                      subject to  exemptions     in the
                                                          tions in   theAct
                                                                         Act(45
                                                                             (45CFR
                                                                                 CFRpart
                                                                                       par 5). Accordingly, this report
                                                                                           5). Accordingly, this report
          will bebe
          will       posted
                          posted
                               on theon      the t Internet
                                          Interne                 at   htt://oi2.hhs.gov.
                                                   at http://oig.hhs.gov.                         .


         If you have any questions or comments about ths report please do not hesitate to call me, or
         If                                                                              i
                           questions or comments about this report, please do not hesitate to call me, or           I


         \ contact
         \conta    Alice Norwo
               ct Alice  Norwood,  Audit Manager, at (415) 437-8360 or though e-mail at
                               od, Audit
                                       Manager, at (415) 437-8360 or through e-mail at
         Alice.NorwoodCIoig.hhs.gov.
         Alice.N orwood@oig.hhs.gov. Please
                                        Please refer
                                               refer to report number
                                                     to report        A-09-07-00087 in all
                                                               number A-09-07-00087 in all
         correspondence.
         correspondence.

                                                                    Sincerely, .
                                                                    Sincerely,


                                                              ?)~ ~. ~

                                                               -/ ..-
                                                              c7lCA
                                                                    Lori A. Ahlstr
                                                                    Region
                                                                    Regional
                                                                                   .... {)
                                                                                  ~.
                                                                            Ahlstrand
                                                                                  and
                                                                              Inspector
                                                                           al Inspec    General
                                                                                    tor Genera
                                                                     for Audit Services
                                                                                Services

         Enclosure'
         Enclosure .
Page 2 – Mr. John A. Wagner


Direct Reply to HHS Action Official:

Ms. Sharon M. Fuji
Regional Administrator
Administration for Children and Families
U.S. Department of Health and Human Services
90 Seventh Street, Ninth Floor
San Francisco, California 94103
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF IMPROPER
 TEMPORARY ASSISTANCE FOR
   NEEDY FAMILIES BASIC
  ASSISTANCE PAYMENTS IN
CALIFORNIA FOR APRIL 1, 2006,
  THROUGH MARCH 31, 2007




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-09-07-00087
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Temporary Assistance for Needy Families (TANF) program, a block grant program,
provides eligible families with work opportunities and other assistance, including basic
assistance payments for such ongoing basic needs as food, clothing, shelter, and utilities. The
Federal and State Governments jointly fund and administer the TANF program. The
Administration for Children and Families (ACF), Office of Family Assistance, administers the
program at the Federal level.

Federal and State laws, regulations, and other requirements establish TANF eligibility, payment,
and documentation requirements. To be eligible for TANF, a needy family must, among other
requirements, include a minor child or pregnant woman, not exceed established time limits for
receiving assistance, engage in work activities, not exceed income and resource thresholds
established by the State, meet citizenship and residency requirements, submit a written
application for benefits, and furnish the Social Security number of each family member. The
State must maintain records on the provision of assistance, including facts to support eligibility
and payment determinations.

In California, the Department of Social Services (the State agency) administers the TANF
program. The government offices of the 58 California counties (county offices) determine the
eligibility of applicants and the payment amounts for basic assistance. For the period April 1,
2006, through March 31, 2007, the State agency made 4,929,234 monthly basic assistance
payments totaling $2,592,785,088 ($1,614,527,274 Federal share) to or on behalf of TANF
recipient families.

ACF and the Office of Management and Budget (OMB) requested this review.

OBJECTIVES

Our objectives were to determine whether the State agency (1) made TANF basic assistance
payments to or on behalf of recipient families in accordance with Federal and State requirements
and adequately documented eligibility and payment determinations and (2) accurately reported
basic assistance expenditures to ACF.

SUMMARY OF FINDINGS

For the period April 1, 2006, through March 31, 2007, the State agency made some TANF basic
assistance payments that did not meet Federal and State requirements and did not adequately
document all eligibility and payment determinations. The State agency accurately reported basic
assistance expenditures to ACF.

We did not identify any errors in 133 of the 150 payments in our statistical sample. However,
the remaining 17 payments were improper:



                                                 i
   •    For 14 payments, the recipient families were ineligible for TANF basic assistance or the
        payments were calculated improperly.

   •    For three payments, the case files did not contain all required documentation supporting
        eligibility and payment determinations.

Based on our sample results, we estimated that the overall TANF improper payment rate was
5.7 percent of the Federal dollars expended and 11.3 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$91,613,100 (Federal share) for 558,647 improper payments, including $89,689,384 for 492,924
overpayments and $1,923,716 for 65,723 underpayments. The following table summarizes our
statistical estimates.

                           Statistical Estimates of Improper Payments

                                               Improper Payment Rate        Improper Payments

                 Error Category                 Federal       No. of        Federal      No. of
                                                Dollars      Payments       Dollars     Payments
  Eligibility and payment calculation errors     4.51%         9.33%     $72,889,240     460,062
  Documentation errors                           1.16%         2.00%       18,723,860     98,585

       Overall                                   5.67%        11.33%     $91,613,100     558,647

RECOMMENDATIONS

We recommend that the State agency:

   •    use the results of this review to help ensure compliance with Federal and State TANF
        requirements by (1) reemphasizing to recipients the need to provide accurate and timely
        information and (2) requiring county office employees to verify eligibility information
        and maintain appropriate documentation in all case files,

   •    follow State law and guidance by ensuring that recipients are experiencing hardship when
        extending TANF basic assistance payments beyond the 60-month Federal lifetime limit,

   •    determine the current eligibility of all recipients identified in this review as improperly
        enrolled in the TANF program and ensure that further assistance is denied for those who
        remain ineligible, and

   •    recalculate assistance budgets for all recipients identified in this review as having
        received improperly calculated payments.




                                                  ii
STATE AGENCY COMMENTS

In its comments on our draft report (Appendix E), the State agency agreed with all of our
recommendations except the second one. The State agency commented that it followed State
law and guidance when granting hardship extensions of TANF basic assistance payments beyond
the 60-month Federal lifetime limit.

The State agency also expressed its concerns about the audit methodology, development of a
national TANF payment error rate, and posting our individual State reports on the Internet before
the eight-State review process is complete.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain the validity of our finding and recommendation regarding the extension of TANF
benefits, as well as the validity of our audit methodology.

The Improper Payments Information Act of 2002 requires Federal agencies to estimate the
annual amount of improper payments in their programs and to report that estimate to Congress.
ACF and OMB requested this review of the TANF program for fiscal year 2008 performance
and accountability reporting. With respect to posting reports on the Internet, the Consolidated
Appropriations Act of 2008 (Public Law 110-161), section 746, requires that each Office of
Inspector General post on its Web site any public report or audit issued within 1 day of its
release.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Improper Payments Information Act of 2002..........................................................1
              Temporary Assistance for Needy Families Program ...............................................1
              California’s Temporary Assistance for Needy Families Program...........................2
              Federal and State Requirements Related to Temporary Assistance for Needy
                Families Basic Assistance....................................................................................3

          OBJECTIVES, SCOPE, AND METHODOLOGY.............................................................3
               Objectives ................................................................................................................3
               Scope .......................................................................................................................4
               Methodology ...........................................................................................................4

FINDINGS AND RECOMMENDATIONS ................................................................................6

          IMPROPER PAYMENTS ...................................................................................................6
               Eligibility and Payment Calculation Errors .............................................................7
               Documentation Errors .............................................................................................9

          CONCLUSION..................................................................................................................10

          RECOMMENDATIONS...................................................................................................11

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR
           GENERAL RESPONSE .................................................................................................11
               Findings .................................................................................................................11
               Sampling Methodology..........................................................................................12
               Estimates Generated From the Review..................................................................13
               Unit of Analysis and Definition of Error ...............................................................13
               Controlling for Nonsampling Errors......................................................................14
               National Payment Error Rate and Posting Reports on the Internet .......................14

APPENDIXES

          A – FEDERAL REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE FOR
               NEEDY FAMILIES BASIC ASSISTANCE

          B – STATE REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE FOR
               NEEDY FAMILIES BASIC ASSISTANCE




                                                                    iv
C – SAMPLE DESIGN AND METHODOLOGY

D – SAMPLE RESULTS AND ESTIMATES

E – STATE AGENCY COMMENTS




                            v
                                      INTRODUCTION

BACKGROUND

The Administration for Children and Families (ACF) and the Office of Management and Budget
(OMB) requested this review of the Temporary Assistance for Needy Families (TANF) program
for fiscal year 2008 performance and accountability reporting.

Improper Payments Information Act of 2002

The Improper Payments Information Act of 2002 (Public Law 107-300) requires Federal
agencies to estimate and report to Congress on the annual amount of improper payments in their
programs, the causes of the improper payments, and the corrective actions taken. Section 2(d)(2)
of this Act (31 U.S.C. § 3321) states that an improper payment:

       . . . (A) means any payment that should not have been made or that was made in
       an incorrect amount (including overpayments and underpayments) under
       statutory, contractual, administrative, or other legally applicable requirements;
       and
       (B) includes any payment to an ineligible recipient, any payment for an ineligible
       service, any duplicate payment, payments for services not received, and any
       payment that does not account for credit for applicable discounts.

To clarify this definition, OMB Circular A-123, Appendix C, part I.A, states that “when an
agency’s review is unable to discern whether a payment was proper as a result of insufficient or
lack of documentation, this payment must also be considered an error.”

Temporary Assistance for Needy Families Program

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public Law
104-193) established the TANF program to help families progress from welfare to
self-sufficiency. The Federal and State Governments jointly fund and administer the program.
At the Federal level, the ACF Office of Family Assistance administers the program. Within
broad national guidelines established by Federal statutes, regulations, and other requirements,
States have significant flexibility in designing their programs and determining eligibility
requirements.

The Federal Government provides TANF funds in the form of block grants, which are specified
amounts directly allocated to States. To be eligible for a TANF block grant, a State must submit
a State plan to ACF within the 27-month period prior to the Federal fiscal year in which the
funds are to be provided. The State plan is an outline of how each State will operate its TANF
program, including program administration, criteria for determining eligibility and delivering
benefits, and assurances against fraud and abuse. ACF reviews the State plan for completeness




                                                1
but does not issue an approval. ACF has stated that a determination that a plan is complete does
not constitute its endorsement of State policies. 1

Pursuant to section 401 of the Social Security Act (the Act), the TANF program provides
assistance and work opportunities to needy families. As a general rule, States must use the funds
for eligible families with a minor child or pregnant woman and for one of the four purposes of
the TANF program, including providing assistance to needy families. 2 Federal regulations
(45 CFR § 260.31(a)(1)) define assistance as cash, payments, vouchers, and other forms of
benefits designed to meet a family’s ongoing basic needs, including, but not limited to, food,
clothing, shelter, and utilities. Such assistance is referred to as “basic assistance.”

States may use various funding options to provide benefits and services under their TANF
programs (e.g., commingled Federal and State funds or segregated State funds). The funding
option chosen determines what specific requirements apply and whether a particular use of funds
is appropriate. Commingled Federal and State funds are subject to Federal laws and
requirements.

California’s Temporary Assistance for Needy Families Program

In California, the Department of Social Services (the State agency) administers the TANF
program. The government offices of the 58 California counties (county offices) determine the
eligibility of applicants for TANF benefits. The county offices use one of four computerized
payment and information reporting systems to process and pay TANF basic assistance benefits. 3

The State agency has opted to commingle Federal and State funds in its TANF program. During
our audit period, the State agency, on average, funded 62 percent of its basic assistance
expenditures from the Federal TANF block grant, and the State and counties paid the remaining
38 percent.

The State agency requires individuals to submit written applications for TANF basic assistance.
The county offices review the applications and determine whether individuals meet TANF
eligibility requirements. For each applicant determined eligible, the county office determines the
amount of assistance to be paid to the family. As part of the application process, the county
office informs the applicant of his or her responsibility to notify the county office of specified
changes that might affect eligibility or payment status.




1
    See 64 Federal Register 17720, 17847 (April 12, 1999).
2
 The other purposes of TANF are to (1) end the dependence of needy parents by promoting job preparation, work,
and marriage; (2) prevent and reduce out-of-wedlock pregnancies; and (3) encourage the formation and maintenance
of two-parent families (section 401 of the Act).
3
 The four systems are (1) Consortium-IV; (2) the California Work Opportunity and Responsibility to Kids
(CalWORKs) Information Network; (3) the Interim Statewide Automated Welfare System; and (4) the Los Angeles
Eligibility, Automated Determination, Evaluation, and Reporting System.
                                                             2
On a quarterly basis, the county offices are required to redetermine recipient eligibility by
verifying a limited number of eligibility requirements and to redetermine assistance amounts
using prospective budgeting. 4 The county offices base eligibility and assistance amounts for the
upcoming quarter on information that recipients provide on their Quarterly Eligibility/Status
Reports. Assistance amounts may not be revised during the quarter, except under specified
circumstances.

On an annual basis, recipients must submit new written applications, and the county offices must
verify any updated information and redetermine eligibility.

Federal and State Requirements Related to Temporary
Assistance for Needy Families Basic Assistance

The State agency must comply with certain Federal requirements in determining and
redetermining eligibility and payment amounts. Federal regulations (45 CFR §§ 205.51–205.60
and parts 260–264) set forth basic TANF eligibility requirements that States must impose on
families receiving assistance, including time limits and work requirements for adults.
Appendix A of this report contains the specific Federal requirements related to TANF basic
assistance.

In addition, the California State plan, the California Welfare and Institutions Code (WIC,
Division 9, Part 3, Chapters 1 and 2), and State guidance establish TANF basic assistance
requirements. The State plan incorporates Federal requirements and establishes all other
eligibility requirements, such as income and resource levels and standards of need, 5 as set forth
in State law and guidance. Appendix B of this report contains the specific State requirements
related to TANF basic assistance.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency (1) made TANF basic assistance
payments to or on behalf of recipient families in accordance with Federal and State requirements
and adequately documented eligibility and payment determinations and (2) accurately reported
basic assistance expenditures to ACF.




4
 Prospective budgeting uses reasonably anticipated income to determine recipient benefits. Income is considered
reasonably anticipated when (1) the income has been or will be approved or authorized as of a date within the
upcoming quarter, or the household is otherwise reasonably certain that the income will be received within the
quarter, and (2) the amount of income is known (WIC § 11265.2(a) and (b)).
5
 The State sets the standard of need based on the number of household members and uses the standard to determine
eligibility for TANF basic assistance (WIC § 11450).
                                                        3
Scope

Our audit period covered April 1, 2006, through March 31, 2007. We did not review the overall
internal control structure of the California TANF program. Rather, we reviewed the State
agency’s procedures relevant to the objectives of the audit.

We performed fieldwork from June 2007 through February 2008 at the State agency in
Sacramento, California, and at selected county offices throughout the State.

Methodology

To accomplish our objectives, we:

    •   reviewed Federal and State laws, regulations, and other requirements related to TANF
        basic assistance eligibility and payment amounts;

    •   held discussions with ACF regional officials and with State officials to obtain an
        understanding of policies, procedures, and guidance for determining TANF basic
        assistance eligibility and payment amounts;

    •   obtained a list of TANF basic assistance payments for the period April 1, 2006, through
        March 31, 2007, from the four computerized payment and information reporting systems
        used in California and from four counties; 6

    •   combined payments to or on behalf of each recipient family in a month and obtained a
        universe of 4,929,234 monthly payments totaling $2,592,785,088 ($1,614,527,274
        Federal share);

    •   validated the universe of payments, including reported expenditures;

    •   calculated the average Federal share of California’s TANF basic assistance expenditures
        for the audit period by dividing the Federal dollars listed on line 5A (basic assistance
        payments) of California’s quarterly reports to ACF by the total dollars listed on line 5A;
        and

    •   selected a simple random sample of 150 payments from the universe of 4,929,234
        monthly payments, as detailed in Appendix C.

For each of the 150 sampled items, we determined whether the corresponding case file
(electronic or paper) contained sufficient information for the county office to have made a TANF
basic assistance eligibility determination on the date of initial determination or redetermination.



6
 During the audit period, four counties transitioned from legacy systems to the CalWORKs Information Network.
For these counties, we obtained payment information from the counties for the months before the transitions
occurred and from the CalWORKs Information Network for the months after the transitions occurred.
                                                       4
We also attempted to obtain sufficient independent information to determine whether the
recipient family was eligible for TANF basic assistance and received the proper payment amount
on the payment date selected. Specifically, we determined whether:

   •   the case file contained a completed application from the recipient family head of
       household;

   •   the case file contained a Social Security number for each member of the recipient family
       and, if so, whether the Social Security Administration had issued the number to the
       family member;

   •   the recipient family resided in California by checking driver’s licenses, rental
       agreements, or Federal, State, or local government correspondence;

   •   each family member’s identity, including name and age, was adequately documented in
       the case file (e.g., birth certificates, adoption papers, court decrees, and passports);

   •   each noncitizen family member’s citizenship status in the case file matched the
       information on file with the U.S. Citizenship and Immigration Services’ Systematic Alien
       Verification for Entitlement program;

   •   the recipient family’s income was at or below the income threshold required to be
       eligible for TANF basic assistance on the payment date selected by reviewing
       information from the State’s Income Eligibility and Verification System, the State
       Employment Development Department, and the case file;

   •   the recipient family’s resources were at or below the resource threshold required to be
       eligible for TANF basic assistance on the payment date selected by checking the
       State Department of Motor Vehicles records on automobile ownership;

   •   the recipient family was not receiving concurrent payments from California and a
       neighboring State (Oregon, Nevada, or Arizona) by checking the State agency’s
       Integrated Fraud Detection System;

   •   no member of the recipient family was a fugitive felon or parole violator by checking the
       application and the Quarterly Eligibility/Status Report in the case file;

   •   the recipient family complied with child support requirements by reviewing information
       from the case file and the county child support enforcement agency;

   •   assistance was not provided to any adult member, minor head of household, or minor
       spouse in the recipient family for a total of more than 60 cumulative months by reviewing
       information from the State agency’s Welfare Data Tracking Implementation Project; and




                                                5
   •   the parent or caretaker in the recipient family met work requirements by reviewing the
       case file.

We estimated, for the total universe of 4,929,234 TANF monthly basic assistance payments, the
total Federal dollar value of payments with eligibility or calculation errors and with
documentation errors (overpayments, underpayments, and combined over/underpayments). We
also estimated, for the total universe, the total number of these improper payments.

In addition, we determined the improper payment rate in dollars by dividing the estimated
improper Federal dollars by the total Federal dollars in the universe. We also determined the
improper payment rate for the number of payments in error by dividing the estimated number of
improper payments by the total number of payments in the universe.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The State agency made some TANF basic assistance payments that did not meet Federal and
State requirements and did not adequately document all eligibility and payment determinations.
The State agency accurately reported basic assistance expenditures to ACF.

Of the 150 payments in our statistical sample, 17 payments totaling $2,788 (Federal share) were
improper because the recipient families were ineligible for TANF basic assistance, the payments
were calculated improperly, or the case files did not contain all required documentation
supporting eligibility and payment determinations. The 17 improper payments consisted of
15 overpayments totaling $2,729 and 2 underpayments totaling $59. We did not identify any
errors in the remaining 133 payments.

Based on our sample results, we estimated that the overall TANF improper payment rate was
5.7 percent of the Federal dollars expended and 11.3 percent of the number of basic assistance
payments made for the 1-year audit period. Specifically, we estimated that the State agency paid
$91,613,100 (Federal share) for 558,647 improper payments, including $89,689,384 for 492,924
overpayments and $1,923,716 for 65,723 underpayments. (See page 10 for additional statistical
estimates.)

IMPROPER PAYMENTS

Table 1 summarizes the errors noted in the 17 improper payments in our sample.




                                               6
                           Table 1: Summary of Improper Payments
                                                                     Improper           No. of
                                                                      Federal         Improper
                          Type of Error
                                                                     Payments         Payments
  Eligibility and Payment Calculation Errors
   Recipient families were ineligible:
    Income threshold exceeded on payment dates                           $765            3
    60-month limit exceeded                                               300            1
          Subtotal                                                     $1,065            4
   Payments were calculated improperly:
    Incorrect household income                                          $681             5
    Incorrect budget amounts                                             141             3
    Noncompliance with work requirements                                  83             1
    Noncompliance with school attendance requirements                    248             1
          Subtotal                                                      1,153           10
          Subtotal                                                     $2,218           14
  Documentation Errors
   Documentation was not sufficient to support eligibility
    and payment determinations                                          $570             3

            Total                                                      $2,788           17

We have provided details on each of these payment errors to the State agency.

Eligibility and Payment Calculation Errors

Recipient Families Were Ineligible

Pursuant to 45 CFR § 263.2(b)(3), income and resource thresholds are established by the State
and must be included in the State plan. Generally, income thresholds vary based on the number
of family members in the household. Federal regulations (45 CFR §§ 205.51 and 205.55)
establish requirements for income and eligibility verification. These regulations, which govern
the Income and Eligibility Verification System, require a State to request information from other
agencies to verify individuals’ eligibility for assistance under the State plan and the correct
amount of assistance payments for applicants and recipients.

The county offices are required to inform each applicant and recipient, at the time of application
and subsequently, of his or her initial and continuing responsibilities to furnish accurate,
complete, and current eligibility information (WIC § 11004(a) and (b)). In addition, WIC
§ 11265.3 requires each applicant and recipient to make a timely report to the county office of
certain changes that may affect eligibility or the amount of the monthly assistance payment.

Pursuant to 45 CFR § 264.1(a)(1), no State may use any of its Federal TANF funds to provide
assistance to a family that includes an adult head of household or a spouse of the head of
household who has received Federal assistance for a total of 5 years (i.e., a cumulative total of


                                                   7
60 months, whether or not consecutive). However, 45 CFR § 264.1(c) allows States the option
to extend assistance beyond the 5-year limit for up to 20 percent of the average monthly number
of families receiving assistance during the fiscal year on the basis of hardship, as defined by the
State, or battery of a family member. 7 Pursuant to WIC § 11454(c), assistance to a family will
not be discontinued upon receipt of 60 months of TANF basic assistance if the family is
experiencing a hardship. Hardship exists when all parent or caretaker relatives living with the
child meet any of the following requirements: (1) they are at least 60 years of age; (2) they have
primary responsibility for providing care for a child, and such care impairs their ability to be
regularly employed or to participate in welfare-to-work activities; (3) they are required to be
present in the home because of another household member’s illness or incapacity, and their
caretaking responsibilities impair their ability to be regularly employed or to participate in
welfare-to-work activities; (4) they are receiving State Disability Insurance or Workers’
Compensation Temporary Disability Insurance, and the disability significantly impairs their
ability to be regularly employed or to participate in welfare-to-work activities; or (5) they are
incapable of maintaining employment or participating in welfare-to-work activities, as
determined by the county.

Of the 150 sampled payments, 4 payments totaling $1,065 (Federal share) were made to or on
behalf of recipient families who did not meet Federal and State eligibility requirements:

    •   For three overpayments totaling $765 (Federal share), the recipient families’ household
        incomes exceeded the TANF basic assistance income threshold on the payment dates.

    •   For one overpayment totaling $300 (Federal share), the recipient family received TANF
        assistance for more than 60 months and did not qualify for an extension on the basis of
        hardship or battery of a family member. According to State agency officials, the State
        agency extended assistance because it relied on hardship experienced by the recipient
        before the 60 months had expired.

Payments Were Calculated Improperly

Under Federal regulations (45 CFR § 263.2(b)(3)), States determine whether recipients are
financially eligible for assistance. Pursuant to WIC § 11265.1(a), county offices are required to
redetermine recipient eligibility and assistance amounts on a quarterly basis using prospective
budgeting. The county offices must use the information on recipients’ Quarterly
Eligibility/Status Reports to prospectively determine eligibility and assistance amounts for the
following quarter. The budget must be recalculated whenever there is a change in the recipient’s
income or household circumstances.

Federal regulations (45 CFR § 261.10(a)(1)) require that a parent or caretaker receiving
assistance engage in work activities when the State has determined that the individual is ready to


7
 Section 408(a)(7)(C) of the Act exempts families from being terminated from TANF assistance once they reach the
60-month limit; it does not exempt them from accruing months toward the limit. The statute permits States to
continue to provide assistance to families beyond the 60-month limit based on hardship or battery of a family
member (69 Fed. Reg. 17847, April 12, 1999).
                                                       8
do so or when he or she has received assistance for a total of 24 months, whichever is earlier. If
an individual refuses to engage in work, the State must reduce or terminate the amount of
assistance payable to the family, subject to any good cause or other exceptions that the State may
establish (45 CFR § 261.14(a)). Under WIC § 11327.5(c), as stated in the California State plan,
a public assistance recipient who refuses or fails without good cause to comply with employment
requirements must be removed from the assistance unit until the individual performs the required
employment activity. 8 WIC § 11320.3(b) establishes the circumstances under which an
applicant or recipient may be exempt from employment requirements. (See page 4 of Appendix
B.)

All children in an assistance unit for whom school attendance is compulsory are required to
attend school (WIC § 11253.5). If a child does not attend school regularly as required, the
calculation of assistance will not include the needs of the noncompliant child who is age 16 or
older, or, in the case of a noncompliant child under age 16, the calculation of assistance will not
consider the needs of any adults included in the assistance unit.

Of the 150 sampled payments, 10 payments totaling $1,153 (Federal share) were made to or on
behalf of recipient families who were eligible for basic assistance but for whom payments were
calculated improperly:

    •    Five overpayments totaling $681 (Federal share) were calculated using incorrect income
         amounts.

    •    Three payments totaling $141 (Federal share) were calculated using incorrect budget
         amounts. The three payments consisted of one overpayment of $82 that resulted from
         using an incorrect household size and two underpayments totaling $59 that resulted from
         incorrect adjustments.

    •    One overpayment totaling $83 (Federal share) was calculated without a reduction for a
         recipient family member who did not comply with work requirements and did not qualify
         for an exemption from the State agency.

    •    One overpayment totaling $248 (Federal share) was calculated without a reduction for a
         recipient family member who did not comply with State school attendance requirements.

Documentation Errors

State agencies are required to maintain records regarding applications and eligibility
determinations for the provision of financial assistance. Included in such records should be facts
supporting initial and continuing eligibility determinations (45 CFR § 205.60(a)). OMB Circular
A-123, Appendix C, part I.A, states that when a Federal agency’s review is unable to discern
whether a payment was proper as a result of insufficient or lack of documentation, this payment
must be considered an error.

8
 An assistance unit is a group of related persons living in the same home who have been determined to be eligible for
TANF assistance and for whom cash aid has been authorized (“Manual of Policies and Procedures,”
section 80-301(a)(9)(QR)).
                                                         9
Pursuant to WIC § 11050, a State-prescribed written application must be completed for each
case. In addition, WIC § 11265(a) requires that all variable factors of need and eligibility be
reconsidered, reevaluated, and verified at least every 12 months. At the time of the
redetermination, the family must complete a certificate of eligibility containing a written
declaration of the information required to establish continuing eligibility and the assistance
amount. WIC § 11265(b) provides that the certificate must include (1) the names of all children
receiving aid; (2) their present residence; (3) the names and status of adults living in the home;
(4) the name and, if known, the Social Security number and present whereabouts of a parent who
is not living in the home; and (5) any outside income that may have been received through
employment, gifts, or the sale of real or personal property.

The case files for three sampled payments totaling $570 (Federal share) did not contain adequate
documentation to support eligibility and payment determinations. For these overpayments, the
missing documentation included an application covering the payment month and/or facts
supporting exemptions from work activities.

CONCLUSION

Some of the sampled payments did not meet Federal and State eligibility, payment, or
documentation requirements. For these payments, (1) recipient families did not fully disclose
information at the time of application or eligibility redetermination and did not notify the county
offices of changes in financial situation or other changes affecting eligibility, (2) the county
offices did not verify all information provided to support applications, (3) one county office
incorrectly provided assistance to a recipient beyond the 60-month Federal limit, or (4) the
county offices did not maintain appropriate documentation to support eligibility and payment
determinations.

Based on our sample results, we estimated that the TANF improper payment rate was 5.7 percent
of the Federal dollars expended and 11.3 percent of the number of basic assistance payments
made for the 1-year audit period. Specifically, we estimated that the State agency paid
$91,613,100 (Federal share) for 558,647 improper payments, including $89,689,384 for 492,924
overpayments and $1,923,716 for 65,723 underpayments. Table 2 summarizes our statistical
estimates. (See Appendix D for details on our sample results and estimates.)

                     Table 2: Statistical Estimates of Improper Payments

                                               Improper Payment Rate      Improper Payments

               Error Category                   Federal     No. of        Federal      No. of
                                                Dollars    Payments       Dollars     Payments
  Eligibility and payment calculation errors     4.51%        9.33%     $72,889,240     460,062
  Documentation errors                           1.16%        2.00%      18,723,860      98,585

     Overall                                     5.67%       11.33%     $91,613,100     558,647




                                                 10
We are not recommending recovery of the overpayments identified in this report primarily
because ACF decided to assess penalties 9 in the TANF program rather than take disallowances
in response to audit findings.

RECOMMENDATIONS

We recommend that the State agency:

       •    use the results of this review to help ensure compliance with Federal and State TANF
            requirements by (1) reemphasizing to recipients the need to provide accurate and timely
            information and (2) requiring county office employees to verify eligibility information
            and maintain appropriate documentation in all case files,

       •    follow State law and guidance by ensuring that recipients are experiencing hardship when
            extending TANF basic assistance payments beyond the 60-month Federal lifetime limit,

       •    determine the current eligibility of all recipients identified in this review as improperly
            enrolled in the TANF program and ensure that further assistance is denied for those who
            remain ineligible, and

       •    recalculate assistance budgets for all recipients identified in this review as having
            received improperly calculated payments.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In its comments on our draft report (Appendix E), the State agency agreed with all of our
recommendations except the second one. The State agency commented that it followed State
law and guidance when granting hardship extensions of TANF basic assistance payments beyond
the 60-month Federal lifetime limit and that it was referring this issue to ACF for policy
clarification.

In addition, the State agency expressed concerns about the findings, audit methodology,
development of a national TANF payment error rate, and posting of individual State reports on
the Internet. The State agency’s specific comments on these issues and our responses follow.

Findings

State Agency Comments

The State agency disagreed that one case did not qualify for the hardship extension of the
60-month Federal lifetime limit and disputed our application of the hardship rule. With respect to
the finding that a recipient family member did not comply with State school attendance



9
    Penalties are set forth in section 409 of the Act.
                                                         11
requirements, the State agency disagreed with the scope of the review because it included
California-specific requirements. The State agency agreed that three cases lacked documentation
but said that the errors were procedural and should not be treated as payment errors.

Office of Inspector General Response

We applied Federal and State requirements regarding the extension of TANF benefits. Because
the recipient family received TANF assistance for more than 60 months and did not qualify for
an extension on the basis of hardship or battery of a family member, the sampled payment was
erroneous. With respect to our application of California-specific requirements, the objective of
our review was to determine the State agency’s compliance with both Federal and State
requirements. OMB Circular A-123, Appendix C, part 1.A, states that “when an agency’s
review is unable to discern whether a payment was proper as a result of insufficient or lack of
documentation, this payment must also be considered an error.”

Sampling Methodology

State Agency Comments

Because we used five different sources of data to compile our sampling frame, the State agency
questioned whether the frame was truly representative of the target population so that every
member of that population had an equal probability of selection. In addition, the State agency
commented that the sample size was too small and that the report did not state the confidence
interval or measure of error. Finally, the State agency commented that we had not provided, as
requested, the descriptive statistics for the sampling frame.

Office of Inspector General Response

Our sampling frame was valid and represented TANF payments reimbursed to California from
April 2006 through March 2007. The sources of the payment data that we used for the sampling
frame were the same sources that California used to prepare its Federal claim. We reconciled the
payments included in the sampling frame to the amounts on the State agency’s Federal claim.
Our sample unit was a monthly TANF basic assistance payment to or on behalf of a recipient
family. The payment included all basic assistance payments made to or on behalf of the family
for the month. Therefore, each monthly payment in the sampling frame had an equal probability
of being selected for review.

We used our statistical sampling software to generate 150 random numbers and selected the
items with corresponding numbers from the sampling frame. Our software has passed numerous
tests for randomness prescribed by the National Bureau of Standards (now known as the
National Institute of Standards and Technology). Because our software includes a valid random
number generator, all sample units in the frame had an equal probability of being selected.

The sample size does not affect the validity of the statistical estimates, which we calculated
using an unbiased estimator. The upper and lower limits of the confidence interval take into



                                                12
account the sample size, and we fully disclosed those limits in Appendix D. The sample allowed
us to estimate the amount of improper payments in the sampling frame. We reported the point
estimate and the sampling error at the 90-percent confidence level in Appendix D. Our sampling
and estimation methodologies were unbiased and statistically valid.

With respect to the State agency’s request for descriptive statistics, we provided the State agency
with the data necessary to calculate the statistics for the sampling frame.

Estimates Generated From the Review

State Agency Comments

The State agency commented that using the lower limit estimates would be more appropriate
than using the point estimates to calculate error rates. In addition, the State agency commented
that we had mistakenly extrapolated findings to the universe of participants.

Office of Inspector General Response

According to the theory of probability and the principles of statistical sampling, the lower limit
would not represent a more appropriate estimate of the errors in the population than the point
estimate. The 90-percent confidence interval provides 90-percent assurance that the true error
value is within the upper and lower limits. The point estimate is the midpoint of that range.

We extrapolated the findings to the sampling frame, which consisted of monthly payments.

Unit of Analysis and Definition of Error

State Agency Comments

The State agency commented that the report did not define the unit of analysis for the
measurement of the objectives as the TANF worker error rate. The State agency also
commented that (1) the two categories of errors were treated as though they were independent
and were mistakenly summed to obtain improper payment rates and (2) documentation errors
were a likely subset of eligibility and payment calculation errors.

Office of Inspector General Response

Our objective was to examine payment errors, not worker error rate. As stated in Appendix C,
the sample unit was a monthly TANF basic assistance payment to or on behalf of a recipient
family for the audit period. The payment included all basic assistance payments made to or on
behalf of the family for the month.

We did not treat documentation errors as a subset of eligibility and payment calculation errors.
The overall improper payment rates consisted of (1) eligibility and payment calculation errors
and (2) documentation errors. Eligibility and payment calculation errors are payments made by



                                                13
the State agency that did not comply with Federal and/or State requirements. Documentation
errors are payments for which the documentation was not sufficient for us to determine whether
the payments were proper.

Controlling for Nonsampling Errors

State Agency Comments

The State agency questioned whether our auditors were trained to properly categorize payments
so that each case was evaluated in a standardized fashion. The State agency also questioned
whether we used a standardized set of criteria to classify documentation errors.

Office of Inspector General Response

To assist our auditors in evaluating the sampled payments, the State agency provided training on
eligibility requirements and payment calculations. We evaluated each of the 150 sampled
payments for compliance with applicable Federal and State requirements.

Our review found that 17 of the sampled payments were improper. The 17 payments were
treated as either eligibility errors or documentation errors but not both. The State agency agreed
with our conclusions on 16 of the 17 errors. For the only error with which the State agency
disagreed, the State agency said that it would contact ACF for policy clarification.

National Payment Error Rate and Posting Reports on the Internet

State Agency Comments

The State agency expressed its concerns about developing a national TANF payment error rate
because States are allowed to use different eligibility criteria, budgeting methodologies, and
sanctioning procedures in their programs. The State agency requested that we refrain from
posting our individual State reports on the Internet until the entire eight-State TANF review
process is complete and all reports are final.

Office of Inspector General Response

The Improper Payments Information Act of 2002 requires Federal agencies to estimate the
annual amount of improper payments in their programs and to report that estimate to Congress.
As stated on page 1 of this report, ACF and OMB requested this review of the TANF program
for fiscal year 2008 performance and accountability reporting.

With respect to posting reports on the Internet, the Consolidated Appropriations Act of 2008
(Public Law 110-161), section 746, requires that each Office of Inspector General post on its
Web site any public report or audit issued within 1 day of its release.




                                                14
APPENDIXES
                                                                                 APPENDIX A
                                                                                   Page 1 of 3

    FEDERAL REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE
              FOR NEEDY FAMILIES BASIC ASSISTANCE

•   Section 401 of the Social Security Act (the Act) states that one purpose of the Temporary
    Assistance for Needy Families (TANF) program is to provide assistance to needy
    families.

•   The Federal Register, Vol. 64, No. 69, page 17825 (April 12, 1999) defines a needy
    family as one that is financially deprived, i.e., lacking adequate income and resources.

•   Regulations (45 CFR § 260.31(a)(1)) define assistance as cash, payments, vouchers, and
    other forms of benefits designed to meet a family’s ongoing basic needs (i.e., food,
    clothing, shelter, utilities, household goods, personal care items, and general incidental
    expenses), as well as supportive services, such as transportation and childcare provided
    to families whose household heads are not employed.

•   Regulations (45 CFR § 263.2(b)) state that cash assistance benefits may be provided only
    to or on behalf of eligible families.

•   Section 408(a)(1) of the Act requires that a State not use any part of the grant to provide
    assistance to a family unless the family includes a minor child who resides with the
    family or includes a pregnant woman.

•   Section 408(a)(4) of the Act requires that a State not use any part of the TANF grant to
    provide assistance to an individual who has not attained 18 years of age, is not married,
    has a minor child at least 12 weeks of age in his or her care, and has not successfully
    completed a high school education or its equivalent.

•   Section 408(a)(7) of the Act and 45 CFR § 264.1(a)(1) provide that a State may not use
    Federal TANF funds to provide assistance to a family that includes an adult who has
    received Federal assistance for more than 60 cumulative months. However, 45 CFR
    § 264.1(c) allows States the option to extend assistance beyond the 5-year limit for up to
    20 percent of the average monthly number of families receiving assistance during the
    fiscal year on the basis of hardship, as defined by the State, or battery of a family
    member.

•   Regulations (45 CFR § 261.10(a)(1)) require that a parent or caretaker receiving
    assistance engage in work activities when the State has determined that the individual is
    ready to do so or when the individual has received assistance for a total of 24 months,
    whichever is earlier.

•   Regulations (45 CFR §§ 205.52(a)(1) and (2)) require, as a condition of eligibility, that
    each applicant for or recipient of aid furnish his or her Social Security number to the
    State or local agency. If the individual cannot recall or was not issued a Social Security
    number, the individual is required to apply to the Social Security Administration (SSA)
                                                                                                 APPENDIX A
                                                                                                   Page 2 of 3

        for a number through procedures adopted by the State or local agency. If such
        procedures are not in effect, the individual must apply directly for such a number, submit
        verification of such application, and provide the number upon its receipt.

    •   Regulations (45 CFR § 205.52(g)) require the State agency to submit all unverified
        Social Security numbers to SSA for verification. 1

    •   Title IV of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996
        (Public Law 104-193, as codified, in part, at 8 U.S.C. §§ 1601–1646) requires a TANF
        recipient to be a citizen or national of the United States or a qualified alien. Legal
        resident aliens and other qualified aliens who entered the United States on or after
        August 22, 1996, are ineligible for assistance for the first 5 years after entry.

    •   Regulations (45 CFR § 263.2(b)(3)) state that TANF basic assistance income and
        resource thresholds are established by the State and must be included in the State plan.

    •   Regulations (45 CFR §§ 205.51 and 205.55) establish requirements for income and
        eligibility verification. These regulations governing the Income and Eligibility
        Verification System require States to request information from other Federal and State
        agencies to verify individuals’ eligibility for assistance under the State plan and the
        correct amount of assistance payments for applicants and recipients.

    •   Regulations (45 CFR § 264.30(a)) require the State agency to refer to the child support
        enforcement agency all appropriate individuals in the family of a child for whom
        paternity has not been established or for whom a child support order needs to be
        established, modified, or enforced. Referred individuals must cooperate in establishing
        paternity and in establishing, modifying, or enforcing a support order with respect to the
        child.

    •   Section 408(a)(2) of the Act provides that if an individual does not cooperate with the
        State in establishing paternity or in establishing, modifying, or enforcing a support order,
        the State must reduce assistance by at least 25 percent or may deny the family any
        assistance.

    •   Section 408 of the Act prohibits assistance for individuals who (1) fail to assign support
        rights to the State, (2) fail to attend high school or an equivalent training program when
        the individual is a teenage parent, (3) fail to reside in an adult-supervised setting when
        the household head is a teenager, (4) are fugitive felons or parole violators, or (5) are
        minor children absent from the home or parents who fail to notify the State agency of the
        absence.




1
 The State agency may accept as verified a Social Security number provided directly to the State agency by SSA or
by another Federal or federally assisted benefit program that has received the number from SSA or has submitted it
to SSA for verification.
                                                                                APPENDIX A
                                                                                  Page 3 of 3

•   The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public
    Law 104-193, as codified, in part, at 8 U.S.C. §§ 1601–1646), section 115(a)(1),
    prohibits assistance for individuals who have been convicted of a drug-related felony.

•   Regulations (45 CFR § 205.60(a)) require State agencies to maintain records regarding
    applications and eligibility determinations for the provision of assistance. Included in
    such records should be facts supporting initial and continuing eligibility determinations.

•   Regulations (45 CFR part 265) establish that States must report TANF financial data on a
    quarterly basis to ACF. Pursuant to 45 CFR §§ 265.7(a) and 265.4(a), each State’s
    quarterly reports must be complete, accurate, and filed within 45 days of the end of the
    quarter. A complete and accurate report means that (1) the reported data accurately
    reflect information available to the State in case records, financial records, and automated
    data systems; (2) the data are free from computational errors and are internally
    consistent; and (3) the reported data include all applicable elements (45 CFR § 265.7(d)).
                                                                                 APPENDIX B
                                                                                   Page 1 of 5

     STATE REQUIREMENTS RELATED TO TEMPORARY ASSISTANCE
              FOR NEEDY FAMILIES BASIC ASSISTANCE

•   The California State plan states that California’s welfare reform program, the California
    Work Opportunity and Responsibility to Kids (CalWORKs) program, is supervised by
    the Department of Social Services (the State agency) and administered by county welfare
    departments.

•   The State agency’s “Manual of Policies and Procedures” (MPP), sections 40-107(c) and
    (d), state that the county is responsible for determining that the applicant or recipient
    meets the requirements of all necessary eligibility factors based on an evaluation of all
    available evidence. Once the applicant’s eligibility is established, the county is
    responsible for determining his or her financial and medical needs. The county is also
    responsible for developing and carrying out plans for meeting such needs within the
    limitations of the Welfare and Institutions Code (WIC) and State regulations.

•   WIC § 11050 requires that a State-prescribed written application be completed for each
    case.

•   WIC § 11265 requires that the counties redetermine eligibility annually. At the time of
    the redetermination, counties must require the family to complete a certificate of
    eligibility containing a written declaration of the information required to establish
    continuing eligibility and the amount of the grant. The certificate must include blanks for
    indicating (1) the names of all children receiving aid; (2) their present place of residence;
    (3) the names and status of adults living in the home; (4) the name and, if known, the
    Social Security number and present whereabouts of a parent who is not living in the
    home; and (5) any outside income that may have been received through employment,
    gifts, or the sale of real or personal property.

•   Pursuant to WIC § 11265.1(a), counties must redetermine recipient eligibility and grant
    amounts on a quarterly basis using prospective budgeting. Counties must use the
    information reported on a recipient’s quarterly report to prospectively determine
    eligibility and the grant amount for the following quarterly reporting period.

•   MPP 44-316.321 requires a recipient to report the following changes during the quarter
    within 10 days of the date that the change becomes known to the assistance unit:
    (1) income exceeding the income reporting threshold, (2) occurrences of drug felony
    convictions, (3) occurrences of fleeing felon status, (4) occurrences of violation of
    conditions of probation or parole, and (5) address changes.

•   WIC §§ 11004(a) and (b) state that an applicant or recipient is responsible for reporting
    accurately and completely, within his or her competence, those facts material to a correct
    determination of eligibility and grant amount.
                                                                                 APPENDIX B
                                                                                   Page 2 of 5

•   WIC § 11004(c) states that current and future grants payable may be reduced because of
    prior overpayments. If the overpayments were caused by agency error, grant payments
    must be reduced by 5 percent of the maximum aid payment to the assistance unit. If the
    overpayments were caused by any other reason, grant payments must be reduced by
    10 percent of the maximum aid payment.

•   WIC § 11265.3(d) states that during the quarterly reporting period, a recipient may report
    to the county any changes in income or household circumstances. Counties must act only
    on changes in household composition voluntarily reported by the recipient that result in
    an increase in benefits, after verification is received.

•   WIC § 11268(a) requires, as a condition of eligibility, that each applicant for or recipient
    of aid furnish his or her Social Security number or submit verification of application for a
    Social Security number.

•   The California State plan states that a family member must be a citizen or qualified alien
    pursuant to the Personal Responsibility and Work Opportunity Reconciliation Act of
    1996.

•   WIC § 11105(a) states that to be eligible for assistance, the recipient must live in the
    State.

•   WIC § 11450(b) states that to receive family assistance, a family must include a child or
    a pregnant woman. WIC § 11250 states that to receive family assistance, a family must
    include a deprived related child under the age of 18, except as provided in section 11253.
    A child is deprived of parental support or due care because of (1) the death, physical or
    mental incapacity, or incarceration of a parent; (2) the unemployment of a parent or
    parents; or (3) the continued absence of a parent from the home due to divorce,
    separation, desertion, or any other reason, except absence due to active duty in the
    uniformed services of the United States.

•   Pursuant to WIC §§ 11324.8(a)(1)(C) and 11477.02, the applicant or recipient must
    cooperate in establishing paternity and enforcing child support obligations and must
    assist individuals in establishing paternity and obtaining child support as a condition of
    eligibility. If the applicant or recipient is found to have not cooperated without good
    cause, the applicant’s or recipient’s family grant must be reduced by 25 percent for such
    time as the failure to cooperate lasts.

•   WIC § 11477 requires, as a condition of eligibility, that each applicant or recipient assign
    to the county any rights to support from any other person that the applicant or recipient
    may have on his or her own behalf or on behalf of any other family member for whom
    the applicant or recipient is applying for or receiving aid.
                                                                                 APPENDIX B
                                                                                   Page 3 of 5

•   WIC § 11254(a) requires that a teenage parent who has not attained 18 years of age, is
    not married, and has a minor child in his or her care must reside in the parent’s, legal
    guardian’s, or adult relative’s home.

•   WIC § 11454 requires that a parent or caretaker relative not receive more than a
    cumulative total of 60 months of Federal assistance. This provision is not applicable
    when all parent or caretaker relatives of the aided child who are living with the child
    meet any of the following requirements:

       o They are 60 years of age or older.

       o They have primary responsibility for providing care for a child, and such care
         impairs their ability to be regularly employed or to participate in welfare-to-work
         activities.

       o They are required to be present in the home because of illness or incapacity of
         another member of the household, and their caretaking responsibilities impair
         their ability to be regularly employed or to participate in welfare-to-work
         activities.

       o They are receiving State Disability Insurance or Workers’ Compensation
         Temporary Disability Insurance, and the disability significantly impairs their
         ability to be regularly employed or to participate in welfare-to-work activities.

       o They are incapable of maintaining employment or participating in welfare-to-
         work activities, as determined by the county.

•   WIC § 11251.3 states that convicted drug felons are ineligible for assistance. WIC
    § 11486.5 states that fleeing felons and probation and parole violators are ineligible for
    assistance.

•   Pursuant to WIC § 11322.8(a), an adult in a single-parent household is required to
    participate in work activities for a minimum of 32 hours per week. For two-parent
    families, WIC § 11322.8(b) states that a recipient must participate in work activities for
    at least 35 hours per week. Both parents in the assistance unit may contribute toward the
    35 hours.

•   The California State plan states that any nonexempt recipient of assistance who refuses to
    sign his or her welfare-to-work plan, refuses to cooperate in meeting program
    requirements, or fails to fulfill the terms of his or her welfare-to-work plan without good
    cause must be removed from the assistance unit, incurring a financial sanction, until the
    individual performs the required welfare-to-work activity.
                                                                                 APPENDIX B
                                                                                   Page 4 of 5

•   WIC § 11320.3(b) exempts an applicant or a recipient of public assistance from
    participation in public assistance work activities if he or she is determined to be (1) an
    individual under age 16; (2) a child attending an elementary, secondary, vocational, or
    technical school on a full-time basis; (3) disabled or of advanced age; (4) a nonparent
    caretaker relative who has primary responsibility for providing care for a child, and the
    county determines that the caretaking responsibilities are beyond those considered
    normal day-to-day parenting responsibilities such that they impair the caretaker relative’s
    ability to be regularly employed or to participate in welfare-to-work activities; (5) an
    individual whose presence in the home is required because of illness or incapacity of
    another member of the household and whose caretaking responsibilities impair the
    recipient’s ability to be regularly employed or to participate in welfare-to-work activities;
    (6) a parent or other relative who has primary responsibility for providing care to a child
    under 12 months of age; or (7) a woman who is pregnant and for whom it has been
    medically verified that the pregnancy impairs her ability to be regularly employed or to
    participate in welfare-to-work activities.

•   WIC § 11450.12(a) states that an applicant family is not eligible for assistance unless the
    family’s income, exclusive of the first $90 of earned income for each employed person, is
    less than the minimum basic standard of adequate care, as adjusted for cost-of-living
    increases. The minimum basic standard of adequate care is designed to ensure (1) safe,
    healthful housing; (2) minimum clothing for health and decency; (3) a low-cost adequate
    food budget; (4) utilities; (5) other items, including household operation, education and
    incidentals, recreation, personal needs, and insurance; and (6) allowance for essential
    medical, dental, or other remedial care (WIC § 11452(a)).

•   Pursuant to WIC § 11450.12(b), a recipient family is not eligible for assistance if income,
    exclusive of exempt amounts, equals or exceeds the maximum aid payment.

•   WIC § 11155(a) specifies that the maximum amount of assets that a family may own and
    still qualify for assistance is $2,000.

•   The California State plan states that a minor child must not be absent from the home for
    more than 1 full calendar month of at least 30 days, with some exceptions defined in
    State regulations.

•   WIC § 10830(b) requires every applicant or recipient of aid, other than dependent
    children or persons who are physically unable to be fingerprint imaged, as a condition of
    eligibility, to be fingerprint imaged.

•   WIC § 11253 states that aid may not be granted to or on behalf of any child who has
    attained the age of 18 unless (1) the child is less than 19 years of age and is attending
    high school or the equivalent level of vocational or technical training on a full-time basis
    and (2) the child can reasonably be expected to complete the educational or training
    program before his or her 19th birthday.
                                                                                  APPENDIX B
                                                                                    Page 5 of 5


•   Pursuant to WIC § 11253.5, all children in an assistance unit for whom school attendance
    is compulsory must attend school. If the eligible child under age 16 does not attend
    school regularly, the needs of all adults in the assistance unit will not be considered in the
    computation of the grant amount. If the eligible child who is 16 years old or older does
    not attend school regularly, the needs of the child will not be considered in the
    computation of the grant amount. In addition, MPP 40-105.5(b) states that recipients
    must cooperate in providing routinely available documentation of school attendance for
    all applicable school-age children in the assistance unit when requested by the county.

•   WIC § 11265.8 requires all applicants and recipients to provide documentation that all
    children in the assistance unit not required to be enrolled in school have received all
    age-appropriate immunizations, unless it has been medically determined that an
    immunization for a child is not appropriate or the applicant or recipient has filed with the
    county an affidavit that the immunizations are contrary to the applicant’s or recipient’s
    beliefs.

•   WIC § 11264 states that no child maintained in an institution, for whom a bona fide offer
    of a proper home has been made, is eligible for further aid. In addition, WIC § 11269
    states that no child may receive aid while he or she is a patient in a public hospital,
    except with respect to temporary medical or surgical care not exceeding 2 calendar
    months.
                                                                                APPENDIX C
                                                                                  Page 1 of 2

                        SAMPLE DESIGN AND METHODOLOGY

SAMPLE OBJECTIVE

Our objective was to determine whether the State agency made TANF basic assistance payments
to or on behalf of recipient families in accordance with Federal and State requirements and
adequately documented eligibility and payment determinations.

AUDIT UNIVERSE

The universe consisted of all TANF basic assistance payments made for the 12-month audit
period that ended March 31, 2007.

SAMPLING FRAME

The sampling frame was a computer file containing 4,929,234 monthly basic assistance payments
to or on behalf of TANF recipients in California for the 12-month period that ended
March 31, 2007. The total TANF reimbursement for the 4,929,234 payments was $2,592,785,088
($1,614,527,274 Federal share).

SAMPLE UNIT

The sample unit was a monthly TANF basic assistance payment to or on behalf of a recipient
family for the audit period. The payment included all basic assistance payments made to or on
behalf of the family for the month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample size of 150 monthly TANF basic assistance payments.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Inspector General, Office of Audit
Services, statistical sampling software, RAT-STATS 2007, version 1. We used the random
number generator for our simple random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the payments in our sampling frame and selected the sequential
numbers that correlated to the random numbers. We then created a list of 150 sampled items.
                                                                                    APPENDIX C
                                                                                      Page 2 of 2

CHARACTERISTICS TO BE MEASURED

We based our determination of whether each sampled payment was improper on Federal and
State laws, regulations, and other requirements. Specifically, if at least one of the following
characteristics was met, we considered the payment under review improper:

   •   The recipient family did not meet one or more eligibility requirements.

   •   The recipient family was eligible for assistance but received an improper payment
       amount (overpayment or underpayment).

   •   The case file did not contain sufficient documentation to support eligibility and payment
       determinations as required by Federal and State regulations.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We estimated the total Federal dollar value of
TANF basic assistance payments with eligibility or payment calculation errors and with
documentation errors (overpayments, underpayments, and combined over/underpayments). We
also estimated the total number of these improper payments.

In addition, we determined the improper payment rate for the dollars expended by dividing the
estimated improper Federal dollars by the total Federal dollars in the universe. We also
determined the improper payment rate for the number of payments in error by dividing the
estimated number of improper payments by the total number of payments in the universe.
                                                                                      APPENDIX D
                                                                                        Page 1 of 3

                            SAMPLE RESULTS AND ESTIMATES

 OVERALL SAMPLE RESULTS AND ESTIMATES

                                          Sample Details
                                                     Value of
                                                     Sampled
                      Value of                       Payment
                      Universe            No. of         s
                      (Federal          Payments     (Federal            Sample
                       Share)          in Universe    Share)              Size

                   $1,614,527,274       4,929,234         $50,709         150


                                      Overall Sample Results
                                                Value of              No. of
                                         Improper Payments          Improper
                                            (Federal Share)         Payments
                     Overpayments               $2,729                   15

                     Underpayments                   59                  2

                        Overall                 $2,788                   17


                                       Overall Estimates
                     Limits Calculated for a 90-Percent Confidence Interval

                         Overall                    Overpayments                  Underpayments
                 Estimated     Estimated     Estimated       Estimated        Estimated    Estimated
                  Value of       No. of       Value of         No. of          Value of      No. of
                 Improper      Improper      Improper        Improper         Improper     Improper
                 Payments      Payments      Payments        Payments         Payments     Payments
Point estimate   $91,613,100      558,647   $89,689,384        492,924        $1,923,716      65,723

Lower limit       46,879,122      362,367     44,942,423       308,855          –352,808      11,704

Upper limit      136,347,078      814,009   134,436,346        738,403         4,200,239     203,944


                        Calculation of Overall Improper Payment Rate

 Dollar value of payments      Estimated improper Federal dollars          $91,613,100 = 5.67%
                                Total Federal dollars in universe        $1,614,527,274

 Number of payments            Estimated No. of improper payments              558,647     = 11.33%
                                Total No. of payments in universe             4,929,234
                                                                                   APPENDIX D
                                                                                     Page 2 of 3

 SAMPLE RESULTS AND ESTIMATES FOR ELIGIBILITY
 AND PAYMENT CALCULATION ERRORS

                 Sample Results—Eligibility and Payment Calculation Errors
                                             Value of         No. of
                                      Improper Payments Improper
                                         (Federal Share)    Payments
                     Overpayments               $2,159                12

                     Underpayments                 59                  2

                        Overall                 $2,218                14


                    Estimates—Eligibility and Payment Calculation Errors
                     Limits Calculated for a 90-Percent Confidence Interval

                         Overall                 Overpayments                  Underpayments
                 Estimated     Estimated     Estimated     Estimated       Estimated    Estimated
                  Value of       No. of       Value of       No. of         Value of      No. of
                 Improper      Improper      Improper      Improper        Improper     Improper
                 Payments      Payments      Payments      Payments        Payments     Payments
Point estimate   $72,889,240      460,062   $70,965,524     394,339        $1,923,716     65,723

Lower limit       32,410,842      282,501    30,489,136     230,732          –352,808     11,704

Upper limit      113,367,639      700,230   111,441,914     623,026         4,200,239    203,944


     Calculation of Improper Payment Rate—Eligibility and Payment Calculation Errors

 Dollar value of payments      Estimated improper Federal dollars       $72,889,240 = 4.51%
                               Total Federal dollars in universe      $1,614,527,274

 Number of payments            Estimated No. of improper payments           460,062     = 9.33%
                               Total No. of payments in universe           4,929,234
                                                                                APPENDIX D
                                                                                  Page 3 of 3

SAMPLE RESULTS AND ESTIMATES FOR
DOCUMENTATION ERRORS

                           Sample Results—Documentation Errors

                                 Value of                  No. of
                            Improper Payments             Improper
                              (Federal Share)             Payments
                                     $570                   3


                            Estimates—Documentation Errors
                   Limits Calculated for a 90-Percent Confidence Interval
                                            Estimated     Estimated
                                             Value of       No. of
                                            Improper      Improper
                                            Payments      Payments
                       Point estimate       $18,723,860     98,585

                       Lower limit           –1,593,905     26,978

                       Upper limit          39,041,624     250,782


             Calculation of Improper Payment Rate—Documentation Errors

Dollar value of payments     Estimated improper Federal dollars         $18,723,860 = 1.16%
                              Total Federal dollars in universe       $1,614,527,274

Number of payments           Estimated No. of improper payments           98,585    = 2.00%
                              Total No. of payments in universe         4,929,234
APPENDIX E
  Page 1 of 5
APPENDIX E
  Page 2 of 5
APPENDIX E
  Page 3 of 5
APPENDIX E
  Page 4 of 5
APPENDIX E
  Page 5 of 5
